        _
    r   Depatiment   of Health and Human Services

               OFFICE OF
          INSPECTOR GENERAL
                                                    1




         A REVIEW OF HMO QUALl~
    ASSURANCE STANDARDS REQUIRED BY
            MEDICAID AGENCIES




              W“T’WBER   1992   OEI-05-g2-()()110
[
                       OFFICE      OF INSPE~OR             GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452 as
amended, is to protect the integrity of the Department of Health and Human SeMces’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections amducted by three OIG operating component the Office of Audit Stxvices, the
Otice of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the secretaxy of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE       OF AUDIT SERVICES

The OIGS Office of Audit SeMces (OAS) provides all auditing seMces for HHS, either by
cxmducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
-g      out their respective responsibilities and are.intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.
                                             .
                          OFFICE       OF INVESTIGA~ONS

The 01(3’s Office of Investigations (01) c6nducts crimina~ civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by provide= The investigative efforts of 01 lead to criminai convictions,
administrative sanctions, or civil money penalties. The ’01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE       OF EVALUATION              AND INSPECTIONS

‘The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Departmen~
the Congress, and the public. The iindings and recommendations contained in these inspection
reports generate rapi~ accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Chicago
Regional Office under the direction of WWlam C. Mora~ Regional Inspector General and
Natalie Coe~ Deputy Regional Inspector General. Project staf&

REGION                                                HEADQIMKIERS
John hL Traqk (Project Leader)                        Vlcki A Greene
Suzanne G. Johnson (Lead Analyst)
Jean Dufresne
Thomas F. Komaniecki




To obtain a copy of this report, call the Chicago Regional Office at (312) 3S3-4124.
  Depa~ment    of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL



                                          .




     A REVIEW OF HMO QUALl~
ASSUWNCE STANDARDS REQUIRED BY
        MEDICAID AGENCIES





       SEPTEMBER   1992   OEI-05-g2WlI0
                   EXECUTIVE                        SUMMARY

     PURPOSE

     To describe health maintenance organization (HMO) quality assurance (QA)
     standards and the methods used by State Medicaid agencies to monitor compliance
     with them.
                                        --
                                 ..

     BACKGRQ~-”
          .-

w	   The Federal Government has encouraged the use of “managed care” or “coordinated
     Ca;e” systems, such as HMOS, by Medicaid agencies to curb rising expenditures in
     these programs. Managed care systems reduce health care expenditures through a
     combination of preventative health care measures and by monitoring, and to some
     extent controlling, the medical utilization of both provider and patient. As of June 30,
     1991, approximately 5 percent of Medicaid recipients were enrolled in HMOS.

     The extent to which an HMO can control utilization and costs, may mean the
     difference between its financial success or failure. Consequently, the incentives for
     these providers to limit semices makes QA an essential component of managed care
     programs. Realizing this, Medicaid agencies mandate their contracting HMOS to
     perform certain QA functions to ensure that Medicaid recipients receive appropriate
     and good quality care.

     In Fiscal Year (FY) 1992, Medicaid programs will spend an estimated $127 billion for
     medical care. Almost $72.5 billion of this amount will come from Federal matching
     funds. The Federal share for FY 1993 is projected to be $84.5 billion, a 16.5 percent
     increase over FY 1992 outlays.


     METHODOLOGY

     We intemiewed Medicaid officials in 24 States and the District of Columbia
     concerning the QA functions their contracting HMOS are required to perform.
     Information and documentation was obtained on how Medicaid agencies verify HMO
     compliance with their QA standards. Additional corroborating evidence on Medicaid
     agency compliance procedures was obtained from structured intemiews yith 28
     HMos.


     FINDINGS

     Medicaid agencies use stnctur~    process and outcome QA standards    to mordtor
     contractor HMOS.


                                                i
                                                                                              .
                                                                                            All Media-d agencies use some form of
                                                                                            Str’UChld standards.

                                                                                                  �
                                                                                                           Structural standards offer an
                                                                                                           assessment of the nature of an HMO’s
                                                                   �
                                   �
                                  ��� ��
                                       ���
                                         ���
                                                                                                           health care resources. These
                 “.~a~t..m=th,
                                                                           2.5.
                                                                             ”:.                           resources include the facili~, staff and
                  Pmgratlis
                                                                                                           the ruies of procedure.
                  A&!cw’io.
                        ca&*                                               2s .

                  Wntteii::gil?tai :.’,,...q. +.;..    ,,....,”.                            Mdidd     agencies have Cam-ed over fee-for..             ‘-
                    ....
                                                                                            setiee process standards to their HMO program.
                   ,,..,,..,            . .. ..
                  P~ocE&:;                 ““.    ‘.        “: ;         ““’:‘:’:: .~
                  ~~~,                                                          ‘   ,         �
                                                                                                           Credentialing, utilization review,
                   .. .... ... .... ,
.;. .
                              ’”””’‘ i:” ‘“z~.”: ~~
                  ciiidej!iaiiii~                                                                          medical record review and other
                     .. . .,, .                                                                            process standards that parallel
                  ItiiiididPatieic.‘:.                              .’     *6




                                                                                                           Medicaid fee-for-service experience
             ;    *Da~                                  .. . ,
                                                                                                           have been readily accepted by
        ‘“                      “’“’
                 ‘“’”util&ti.RkW.~ [~                                     13
                                                                                                           Medicaid agencies as good managed
                                                                                                           care QA standards.
             .:,~w.ng                   ~~mn                        ,       ~“
                                                                                            Medicaid agencies rely on complaint standards
                 QuaI@ Prbblcnf
                 TCiUiiititms/”:                       .,.J ,                               more than patient satisfaction sumeys and health
                                                                   .:    ..&
                                                                                            outcome reviews to ensure quality.
               Cliiii’’lP&uia’                     ‘‘
             ::GdidciitiCi:”
                                                                                              �
                                                                                                           Outcome standards provide
             ‘Ptiin     “                                    .: :          3
              IWtagcment                                        ;, .                                       information on how patients fared
                                                                                        I                  while enrolled in the HMO. Health
                 :Omm                                       .: .
                                                                                                           outcome standards monitor HMO
                 srANDArUm                                         ,:                                      medical services over an extended
              “CbmpWin&At&                                  ~~~ ““
                                                                         ,Z::                              period of time to ensure that they
             : “PITnxd**                                    .: ‘ ,                                         meet accepted community standards
                 Pati4&&itiaCaction                                      ‘8.
                                                                                                           of medical practice.
                 ~,:                                               ~~

                 Hdtii Outmm.                                  ;.6                                         Sumeys of patient satisfaction with
                 Monit&jng,~t@’                                ~‘,                                         HMO operating procedures,
                                                                                                           complaints and grievances provide
                                                       ,.
             •Fd~tix.@mtu                                    th~ ~[an~~	
                                                                                                           information on recipient experiences
                                                                                                           in accessing and using HMO semices
                                                                                                           and on the soundness of HMO
                                                                                                           operations and procedures.

AG13NX                                  COIvMmm

The Health Care Financirw Administration (HCFA) and the Assistant Secretarv for
Planning and Evaluation (~PE)     commented on our draft report. The HCFA ‘felt
that the draft report promoted the use of outcome QA standards over structural and


                                                                                                      ii
process standards and that a balance of QA standards was more desirable. They also
felt that the draft report might leave some readers with the impression “...that
enrollment in an HMO carries significant risk of inappropriate care.”

In our response to HCF& we agree with I-ICFA that a blend of QA standards is
desirable. The scope of this inspection did not analyze differences in quality of care
which might exist between HMO and fee-for-service providers. Consequently, this
issue was not addressed in this report.

Changes to the report have been made to address comments we received from HCFA
and ASPE. The complete text of their comments, and our response, can be found in
Appendix C.

                                                              ... . ..   .




                                           ...
                                           111

                          TABLE                     OF CONTENTS

                                                                                                                         PAGE

                     SUMMARY               . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . . . . . . . . - i

    INTRODUCTION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . . . . . . . . . 1

    ‘FINDINGS      . . . . . . . . . ..= . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5“

.      Three types ofQA standards areused by Medicaid agencies
 to

       monitor HMOs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . . . . . . . . . 5


       Structural standards         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . . . . . . . . . 6


       Process standards        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . . . . . . . . . ...8


       (lutco       mestandard s . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13


    APPENDICES

       f%   Characteristics       ofHMOrespondents                  . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

       B:	 A State by State comparison of QA standards

           for Medicaid HMOs .. . . . . . . . . .. . . . . . . . .              . . . . . . . . . . . . . .-,,..       .0   B-1


       c    Agency comments and OIG l%spmrse                          . . . . . . . . . . . . . . . . . . ..O . . . . . c-1


       D    Endnotes        . . . . . . . . . . . . . . ., . ., _ .. . . . . . . . ..... .. . . . . . . . . . . . . . . . . . D-1

                                     INTRODUCTION

PURPOSE

To describe health maintenance organ&ition (HMO) quaIity assurance (QA)
standards and the methods used by State Medicaid agencies to monitor compliance
w“th them.
                                                                                           �
                                                                                               *

BACKGROUND                     ~
                                                                 .
Title XIX of the Social Security Act, commonly referred to as the Medicaid program,
provides Federal matching funds to States* for medical care. In Fiscal Year (FY)
1992 approximately 29 million Medicaid recipients will be eligible for medical care.

State expenditures for medical care are matched by the Federal Government on the
basis of a formula that measures relative per capita income in each State. Matching
rates for FY 1992 are projected to range from 50 to 79.99 percent for medical
assistance payments, and from 50 to 100 percent for administrative costs. In FY 1992
Medicaid programs will spend an estimated $127 billion for medical care. Almost
$72.5 billion of this amount will come from Federal matching funds. The Federal
share for FY 1993 is projected to be $84.5 billion, an increase of 16.5 percent over FY
1992.1

The Federal Government has encouraged tie use of “managed care” or “coordinated
care” systems by Medicaid programs to curb rising expenditures in State health
programs. Managed care reduces health care expenditures through a combination of
preventative health care measures and by monitoring, and to some extent controlling,
the medical utilization of both provider a.mllpatient. In FY 1991, Medicaid agencies
paid managed care entities nearly $2 bdllam dollars for health care services.

A number of different managed care systems exist. This report focuses on HMOS. As
of June 30, 1991, approximately 5 percent of Medicaid recipients are enrolled in
HMOS. Under the President’s Plan for Comprehensive Health Care Reform, which
encourages the use of managed care, the number of Medicaid recipients enrolled in
HMOS and other managed care systems is expected to increase,

Twenty-five States contract with HMOS to serve their Medicaid recipients. Health
maintenance organizations provide services to diverse Medicaid populations; however,
the vast majority of Medicaid HMOS provide mecikai semices to families with
dependent children (AFDC). Some HMOS also smwe aged, blind and disabled
Supplemental Security Income recipients and othez medically needy Medicaid
populations.2


  * Throughout this report, any reference 10 ‘States” includes the District of Columbia.



                                                                1

The 127 W-OS    providing medical care to Medicaid recipients fall into 4 primary
model types:3

(1)	   Staff, where health care semices are delivered through a group practice
       [employees of the HMO] established by the HMO;

(2)	   Group, where the HMO contracts with a group practice to provide health care
       services;

(3)	   Network, where the HMO both provides for, and contracts with two or more
       group practices or physicians to provide, health care sewices; and,

(4)	   lh&i&al     Practice Association (IPA), where the HMO contracts with physicians
       in individual practice to provide health care semices.

The extent to which an HMO can control costs related to health care, may mean the
difference between its financial success or failure. Most Medicaid agencies contract
with HMOS on a capitated or “at risk” basis. If the cost of providing medical setices
to members exceeds the capitated or f~ed amount the HMO is paid, then the HMO
risks losing money. The incentives for these HMOS and the providers within their
network to limit services makes QA an essential component of managed care
programs.

Simply defined, QA is an ongoing process for evaluating and improving the medical
and other health related sexvices. It is a rapidly evolving and complex area;
consequently, “Standards to measure effectively the impact of care on [patient]
outcome or to evaluate the quality of managed care itself are not well developed... .“4
Even in the fee-for-service arena, which has been around far more than 20 years, not
much is known about the efficacy of QA In both fee-for=service and HMO
environments, Medicaid and other agemcies have developed QA programs to ensure
that patients receive appropriate and gaod quality care..




                                           2

METHODOLOGY

This study is limited to HMOS. It describes QA measures used by State Medicaid
agencies to monitor HMOS. Medicaid fee-for-service and other medical payment
options, such as prepaid health plans, were not reviewed. This study focuses on State
Medicaid agency QA requirements and monitoriimg Health maintenance organizations
are subject to reviews by other governmental and private agencies. They also conduct
their own internal QA assessments. This inspecti.cm did not describe HMO internal
QA standards or QA standards imposed on HMOS by -other governmental or private
agencies.     ---

We conducted structured interviews with all 25 Medicaid agencies that contract with
HMOS to provide medical care. The remaining Medicaid agencies did not contract
with HMOS, at the time of our inspectio~ and were not contacted.

The 25 Medicaid agencies contacted for this inspection were located in the following
States: California, Colorado, District of COhmnhia, Florida, Hawaii, Illinois, Indiana,
Iowa, Maryland, MassachusetW Michigan, M.imwmta, Missouri, New Hampshire, New
Jersey, New York, North Carolina, Ohio, Oregon,, Pennsylvania, Rhode Island,
Tennessee, Utah, Washington and Wisconsin.

Visits were made to 16 States, the r-.ning      9;were contacted by telephone.
Geographic location, HMO characteristimy I@40 population and other factors were
used to select the 16 States for ansite visits, Once a State had been selected, the
HMOS with Medicaid contracts we~e contacted and asked to participate in this study.
In some States, the Medicaid agency had a singie contracting HMO; in others,
multiple HMOS held contracts to provide services to: Medicaid recipients. In States
with multiple HMO contracts, we tried to sekxt HNNls with different characteristics.
The HMOS participating in this. stmiy were not selected, at. random; participation was
entirely voluntary. The HMOS selected and. their charactertitics can be found in -
Appendix A.

Using a structured intemiew guide, we discussed~ (2A. with 28 of the 127 HMOS sewing
Medicaid recipients. These discussions, often included{ the Chief Executive Officer of
the HMO, the medical director, marketing representative and QA coordinator.

We compiled our list of QA standards frorm three somces

  �
       The National Committee     for Quality Assurance% (QA standards dated June 27,
       1991.

  .	   The National Association    of HMO Regulators (NAHMOR)/National
       Association of Insurance   Commissioners’ @&C) Recommended Operational
       Requirements for HMO       QA Programs, adopted by the NAIC/NAHMOR Joint
       Task Force in December      1988.



                                           3

.
    .	   The HCFA Office of Prepaid Health Care’s QA standards for HMOS and
         Competitive Medical Plans contracting with the Medicare program dated
         November 1989.

We identified 13 standards that encompassed all of the standards endorsed bythese
entities. Our list was not all inclusive. The detail of the standards put forth by these
entities is extensive, and we did not attempt to address all of the nuances in this
inspection.

Medicaid agencies were asked to identify, from our list of QA standards, th=standards
contracting HMOS were required to have in place. They were also asked how they
verified HMO compliance with required standards.

The HMOS were asked to identify which of our QA standards they had in place. They
were also asked to identify which QA standards were required as part of their contract
with the State Medicaid agency. Like Medicaid agency respondents, HMO
respondents were asked how the agency verified compliance. Intetiew responses
were compared. Discrepancies in responses were resolved by reviewing documents
and/or recontacting respondents.

The final step in our analysis was to classify each of our QA standards as either
structural, process or outcome. An argument can be made for classifying a standard in
more than one categoqq we classified them into a single category using the following
criteria:

    �	   Standards that provided an assessment of HMO facilities, staff, resources and
         rules of procedure were classified as structural standards.s

    �
         Standards that provided data and information on adherence to HMO internal
         policies, resource consurnptionI and choice of therapies at a freed point in time
         were classified as process standards-a

    �	   Standards that provided Medicaid. tigenciix w“fh information on the net results
         of HMO policies, practices, procedures and quality assurance measures were
         classified as outcome standards.7

Our review was conducted in accordance wiib the Ihreti Standmis for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              4

                                                              FINDINGS                        “

    MEDICAID AGENCIES USE STRU~                                                      PROCESS AND OUTCOME             QA
    STANDARDS TO MONITOR CO~CrOR                                                     HMOS.

                                                                       Health maintenance organizations enter into
      Table I :                                                        contracts with Medicaid agencies to provide
                                                                       health care and related sem”ces to Medicaid
      “.slRuctu’&u                          ‘&?&                       recipients. One function of the Medicaid agency
           ymlm%ms                          ‘ AGEN@23              .   is to ensure that their recipients receive good
.                                                                      quality care in these HMOS. To accomplish this
      “:.P@cnt Education                               z-              goal, Medicaid agencies have adopted a number
      .,”%ogmm                      -
                                                                       of QA standards. (See Appendix B for HMO
      ‘:44c8xsstocat-e*                                2s:             QA standards required by each State.)
      “:&fi**a;QApba                                  ’23
     r                                                                 Quality assurance standards are interactive and
     .,                                  .,.:.., ~~~, ::     :/
      %W3?&”           “::        “:                                   could fall into more than one of three categories.
     “;
      :.’~~’~:.:,                 “‘, : :::.          ,,.    ;.,
                                                                       For example, a requirement to credential
      :“c%&&ikltig                      ““” 21”                        physicians could be considered a structural
                                                                       standard, while one addressing how to credential
          ‘~dtidua~
                  Patient                              16
          &ue Di@,.”                                                   physicians could be a process standard. In this
     ,:                                                                report, we have divided QA standards into three
          ~~iilii~ion, “Rciiew                         13
                                                                       categories: structural, process and outcome.
      :I&&al R&orCi                         .12
       .Revicw :
                                                                       Struchlral standards provide an assessment of the
          ‘~:&tig    ~w,ti
                                                       7               nature of an HMO’s health care resources; its
          (juatity Pmbicm
          Tbrtttinatiomv                                               facility, staff and the rules of procedure.8
     ~ tiial   Practice                     “..       “~.
     .’Gtielines,                                                      Bocess standards assess the intermediate products
                                                                       of care such as utilization rate, choice of
     : “,i&iciata            ‘“              “3”’
       Mmagctttent:                                                    therapies and adherence to, and effectiveness of,
     I                                                                 procedures.g Process standards provide data and
       “om&                                                            information on adherence to HMO internal
       ~m_                              ;         .
                                                                       policies and procedures. They provide data for
       mtupIailitk&+&’”              :’               25               comparing resource consumption by the HMO’s
     ; ~~&.!*,,.:     ,,,          ; ‘;
                                                                       affiliated physicians and hospitals.
      Patieti’*&uiotp        “ ;.   &
      Sitivqa    “ ‘“:”““’”””:
                           ‘. ?!?“”
                               ,.    ““.’                              Process medical record reviews also provide
      Health Outck                                     6               information about the quality and appropriateness
      hfonkming and                                                    of medical care given to a patient at a specific
      E%duation
                                                                       point in time. These narrowly focused medical
     �FcderaJ law mandates [his standard
                                                                       record rew”ews may fail to detect underutilization
                                                                       of HMO services or the benefits of HMO
                                                                       preventative health care and patient
                                                                       counseling.10



                                                                             5

Outcome standards focus on the net results of HMO care over an extended period of
time. They also focus on the health of the HMO itself. Sumeys of patient satisfaction
with HMO operating procedures, complaints and grievances and longitudinal
assessments of medical care, all provide information on how patients fared when
enrolled in HMOS. Outcome standards assess the clinical and nonclinical components
of HMO care which directly impact on patients.

Outcome standards must always be “balanced with measures of structure and process
to ensure high quality medical care. Structural and process standards are widely used
by HMOS, regardless of government mandates, because they are inherent in HMO
philosophy and good business practices.ll 1213                .


ALL MEDICAID      AGENCIES      USE SOME FORM OF STRUCX’UIWL
STANDARDS.

Structural standards (see Table 1) offer an assessment of the nature of an HMO’s
health care resources. These resources include the facility, staff and the rules of
procedure. 14 Some QA proponents feel structural standards “... are appropriate
objects of scrutiny only to the extent that they are demonstrably related to valued
outcomes.”ls For example, evaluating prenatal care patient education programs to
determine their impact on low birth weights is appropriate because it measures the
effect or outcome of the education program. Simply reviewing educational materials
on prenatal care without evaluating the effect on the patient does not assess if the
program is effective and does not provide any infofiation     that might be used to
improve the program.

b     AU Medicaid HMOS are rixpiied to develop a wn”tten QA plan.

A QA plan serves as a blueprint for an HMO’s entire QA activities. It is a descriptive
outline of an HMO’s QA objectives. Implementation, monitoring and evaluation of
the plan is designed to identify deficiencies in HMO operations and quality of care,
and promote corrective action and irnprmwxnents.ls

Twenty-three Medicaid agencies require their HMC% to develop a written QA plan.
Two Medicaid agencies do not specifically stipulate this standard in their HMO
contracts, believing it to be unnecessary as armther governmental body requires it. In
one State, it is the State Department of Public Health. In the other, the contracting
HMO meets Federal standards.

Many Medicaid agencies do not use the QA plans. devel~ped by HMOS as a guide to
evaluate the HMO’s total QA program. Most (1? of 257 Medicaid agencies review the
written QA plans of their HMO contractors during the contracting process. The
agency Medical Director or an RN reads the plan to de~ermine if QA standards are
described, and if appropriate processes are in place to implement these standards. Of
the 17 Medicaid agencies that review the HMO QA plan, at least half do not keep the


                                           6
                                                          �
plan on file. Some Medicaid agencies, whiIe requiring the QA plan to be on file, do
not review it.

In five States, another agency or organization in addition to, or in place of, the
Medicaid agency reviews the HMO’s QA plan. For example, the Department of
Public Health, a Peer Review Organization (PRO) or State Department of Insurance
review the plan. Coordination among these agencies varies. Several HMOS
complained that the involvement of multiple oversight agencies results in duplicate
efforts.

Nineteen Medicaid agencies require their HMO contractors to have an active QA
committee to implement and oversee the performance of the QA functions outlined in
the HMO’s QA plan. All of these Medicaid agencies review minutes from the HMO’s
QA amnittee meetings to verify the committee’s activities. Three Medicaid agencies
have employees attend and participate in HMO QA meetings.

b	    ALl Me&aid agencier are active& kvolved xk HMO patient education program
      some wofig ckbse~ with their Hh40s to develop educational materiidr on pati2nt
      benefits, righ~ and rapmsibilities.

Patient education programs disseminate &formation on patient rights and
responsibilities, benefits, charges, access to care and scheduling of services. This
information is conveyed to Medicaid recipients primarily through HMO marketing
materials.

Federal law (42 CFR Section 434.36) requires Medicaid contracting HMOS to
“...assure the agency that marketing plans, procedures, and materials are accurate, and
do not mislead, confuse, or defraud either recipients or the agency.” States have
responsibility for monitoring adherence to these standards. Some States have
developed additional standards applicable to marketing materials. All of the Medicaid
agencies we interviewed were activdy involved in reviewing their HMOS’ marketing
materials.

Some Medicaid agencies work closely with their HMOS to develop patient education
materials. Other agencies simply advise HMOS abont the content of their patient
education materials. Almost all Medicaid agencies review all marketing or handbook
material the HMO supplies to Medicaid recipients. Some Medicaid agencies formally
authorize the release of educational materials and any changes to the materials to
further ensure the correctness of information HMOs disseminate. Those Medicaid
agencies that are not involved in patient education rely on another State agency to
review and approve educational materials.




                                            7

D	    All HMOS are reqz&d to pmti           accers to care and Medicaid agencies use a
      variety of rnet/zod3 to verijjy adherence to policy.

Federal and State laws require all HMOS providing emergency medical services to
ensure recipient access to care at all times.17 All but 1 of the 25 Medicaid agencies
require HMOS to ensure recipient access to health care services. The Medicaid
ageney that does not require this standard, does not do so because it is already
required by Federal law governing HMOS.

Some Medicaid agencies use a variety of one or more approaches to verify
compliance. More than half (14) of the Medicaid agencies monitor grievances and
complaints on access. Eight agencies review HMO internal procedures and guidelines
regarding access. Eleven take a more aggressive approach and use medical chart
reviews or random calls to HMO clinics, physicians and answering services to ensure
adherence to HMO policy on access to care. One agency spot checks notices posted
in clinks on how to obtain after-hour services. Two review after-hour and
transportation logs. Another uses recipient sumeys. Four Medicaid agencies maintain
a 24-hour toll free hotline for Medicaid HMO recipients, should they experience
difficulty obtaining sefices.


MEDICAID AGENCIES HAVE CARRIED OVER FEE-FOR-SERVICE                            PROCESS
STANDARDS TO THEIR HMO PROGRAM.

process standards assess the intermediate products of care such as utilization rate,
choice of therapies and effectiveness of procedures. 18 This category of standards is
widely used by HMOS to: (1) minimize exposure from unqualified individuals,
(2) monitor resource consumption, (3) assess. adherence to HMO accepted standards
of practice, and (4) manage their care netwarik and provider behavior.

Process standards (see Table 1) are ustmlljt ernbrarmd by HMOS regardless of
Medicaid agency mandates because they are perceitied to be good business practices.
They are perceived to be good tools for ovemming day to day business operations.

Most process standards find their roots in. the fee-fbr-service system. Credentialing,
patient care data, utilization and medical record reviews have been the cornerstone for
assessing QA in fee-for-semice for decades- Medicaid ageney familiarity with these
processes made them prime candidates for acceptance into most Medicaid agencies’
managed care QA programs. Less familiar standards> such as clinical practice
guidelines and the management of physician conduct are somewhat unique to
managed care and have not been as easily assimilated in Medicaid QA programs.

Process standards are necessary to HMO QA as they minimize risk, provide
indications of potential problems and enable corrective action. However, QA
standards addressing credentials, data, practice guidelines and physician management
do not, in themselves, measure the quality of care a patient received. Medical record


                                            8
reviews do provide an indication of the qurdity of care provided on a given day or over
a short period of time but are limited in their ability to provide sufficient information
on which to judge HMO practices.

b	     Tknty-one Medicaid agencies reqti      H..OS to credentia~ most HIWOSmeet or
       exceed mandated requirements.

Credential verification is one method used to minimize the risk of inadequate or
harmful care to Medicaid patients from incompetent providers. This process often
involves the Medicaid agency and other myriad cxganizations, accrediting bodies and
providers,

Most (21) Medicaid agencies require their HIkf@s to veri~ that the physicians and
other health care professionals they empkay me qualified and properly credentialed.
Four Medicaid agencies rely on another State entity to verify credentials and do not
require their HMOS to independently credemiail their providers. In two cases, the
HMO is only required-to veri$ that physicians in their network hold a current, valid
license to practice medicine.

We found that 23 of 28 HMOS had credential verification processes in place that met
or exceeded Medicaid agency mandate%. Physician credentialing is a good business
practice. Court decisions have held HMOS. responsible for the actions of their
contracted physicians. 19 In addition to offering a measure of liability protection,
physician credentialing allows HMOs to select physicians whose practice style reflects
the HMO’s philosophy and objectives..

Independent confirmation of HNK3 credkmtialing results by Medicaid agencies is
practically nonexistent. Four agena’es conduct random samples of HMO physician
files to assess HMO adherence to cred-emtialing guidelines. Most Medicaid agency
credential verification consists of a checik on the licensure or Medicaid participating
status of providers. Six agencies review cmderrtkdirug methodology but do not verifj
whether the HMO adheres to its guideti~..

As in other areas, Medicaid agencies oftem do not vemify or enforce credential
verification. Some Medicaid respondents, knew or assumed that another State entity
verified the credentials of HMO physicians,. However, some of these respondents
were unsure exactly which State entity might actually perform this function, or what
the other State entity’s credential verificatim process encompassed.

w	     Pat&m/ care data received /iom HM%9sofkrn &es not meet Medicaid agenq
       expectations.

Patient care data is statistical information collected by HMOS from patients’ medical
records, contract providers and patient surveys. It enables HMOS to assess patient use
of medical services, patient satisfaction and the nature of sem”ces provided by the
HMO’s affiliated physicians and hospitals~”


                                             9
Patient care data isoften used during utilization review to eliminate unnecessa~ care
and services; thereby, controlling costs and improving quality.21 Utilization review
programs employed by HMOS include: (1) pre-authorization of specialty services;
(2) mandatory second opinion; (3) concurrent review of all hospital admissions and
discharge planning (4) high cost case managemen~ (5) pre-negotiated specialty,
referral contracts; and, (6) education of members and providers on utilization of
services.=

Patient care data collected by HMOS is customized to fit individual HMO needs.
While the content of the information HMOS collect is similar, each HMO establishes
their own criteria for data collection. Some HMOS collect detailed claims information
similar to that collected under the fee-for-service system; others collect aggregate data
horn their contracted hospitals, physicians, laboratories, pharmacies and other
suppliers and have little or no patient specific data. The data collected by HMOS is
usually dictated by their largest subscriber since most HMOS are unable to comply
with all their subscribers’ data requests.=

Sixteen of 25 Medicaid agencies require HMOS to collect individual patient care data
and 13 require HMOS to conduct internal utilization review. Medicaid agencies that
require HMOS to provide individual patient care data often find that the information
does not meet their expectations. For example, some agencies expect data from
I-IMOS to mirror their fee-for-service claims data, this may not be feasible given the
variety of HMO business arrangermmk        Medicaid agencies willing to work with HMO
data have better compliance. A similar problem appears to exist in the area of HMO
utilization review. Medicaid agencies that attempt to impose fee-for-sexvice utilization
rew-ew methodologies are less successful in obtaining useful HMO data than those who
adopt HMO methodologies.

Most Medicaid agencies are not familiar with the kinds of data HMOS collect. Until
recently, data collection among HMOS has primarily focused on inpatient hospital
services. Sexvice specific encounter data. is not commorm in capitated managed care
systems that have no need to maintain detailed claims. information.24 On the other
hand, HMOS that reimburse their contract physicians orria fee-for-service basis can
reasonably be expected to coIlect much more detailed patient care information.

b	    All Medicaid agenci”izrconduct epimdk mediiwl’ reunrd reviews; 12 aLro require
      contacting HMOS to conduct thek own intemrd’ mrzdiizzl record reviews.

Medical records are considered to be the best- source of information on the technical
aspects of care .= Medical record reviews have traditionally been Medicaid’s primary
source of information for QA.26 Medical record reviews and the methodologies used
to conduct them are steeped in the history of the feeAcw-service system. Traditional
medical record reviews examine the type and quality of care a patient received on a
particular day. They are episodic rather than longitudinal in scope, consisting of a
review of a single health care event. In the HMO environment focusing on the
appropriateness and quality of care surrounding a single health care event may fail to


                                            10

       detect underutilization of services or recognize the benefits of HMO preventative
       health care and patient counseling.27

       Federal law requires Medicaid agencies to conduct an independent, external review of
       the quality of sem-ices furnished by HMO contractors. This law requires that States
       use a PRO or a private accreditation body to perform the review.x All of the
       Medicaid agencies we interviewed are in compliance with this statutory requirement
       and contract with either PROS or private accreditation bodies to examine HMO
       medical r~ords to assess the quality of medical care.
          ..
----   Medical record reviews may occur quarterly, hi-annually, or annually. Reviews maybe
       traditional medical record examinations of the care provided surrounding a particular
       medical episode or target specific Medicaid semices such as immunizations or groups
       of recipients such as pregnant women. If the Medicaid population in an HMO is very
       small, all Medicaid recipient medical records may be reviewed. More often, the
       number of recipients enrolled in an HMO limits the number of reviews to 2 to 10
       percent of the HMO’s Medicaid population.

       Some Medicaid agencies, in addition to the independent, external review required by
       Federal law, performed their own medical record reviews to assess the quality of
       contracting HMO services. Twelve also require their HMO contractors to conduct
       their own independent, internal medical record reviews and to report their findings to
       the Medicaid agency.

       Even when no requirement exists for HMOS to conduct their own internal medical
       record reviews, HMO respondents indicated that they do so because these reviews are
       a good business practice. They help the HMO detect unbundling of services, upcoding
       of services and rovide information on the use of services by HMO fee-for-service
       subcontractors.z r Medical record reviews cart also lead to the early detection of
       aberrant physician practice patterns.

       Seven of the 12 Medicaid agencies rely cm medical record reviews to verify HMO
       compliance, but only one audits a sample of the medical records actually reviewed by
       the HMO to veri~ its findings. Three agencies review HMO reports to assess the
       nature, completeness and accuracy of HMO rrredicai reviews. Two do not veri~ HMO
       compliance with this QA requirement.

       Health maintenance organizations are subject to numerous medical record reviews by
       multiple State and Federal agencies, independent accrediting organizations and
       contract subscribers. Duplicative, uncoordinated reviews often result in conflicting
       findings. One HMO received an exemplary rating on its medical records from one
       governmental body while another found the same records “wanting.”




                                                  11

w	    Few (6) Medicaidagentia require use of chkicai practice gukielines establishing
      standardr of care.

In managed care systems clinical practice guidelines can play a vital role in ensuring

good quality medical care. Practice guidelines are thought to promote the use of best

practices in medical care. They provide’’... greater consistency of care...[and reduced]

risk of harm [to the patient] resulting from omission.”3°


The involvement of para-professionals, financial incentives and -other f&ctors unique to

managed care provide the foundation for advocating-the development and use of

clinical practice guidelines by HMOS. Clinical practice guidelines are usually

developed for high risk conditions such as chronic heart disease, substance abuse,

C-sections and hypertension. =         .


Most (19 out of 25) Medicaid agencies do not require HMOS to develop or use

clinical practice guidelines. The six Medicaid agencies that require their HMOS to

develop and use clinical practice guidelines vary considerably in their approach. In

two cases the Medicaid agency, HMO administrative staff and HMO providers have

worked together to establish practice guidelines. One Medicaid agency has developed

their own guidelines for specific encounters. This agency requires all of their

contracting HMOS to use these guidelines in addition to any HMO developed

guidelines. The three remaining agencies review proposed guidelines to ensure they

meet community standards of care but are not involved in the actual development of

guidelines.


Despite lack of a Medicaid agency mandate, more than 70 percent of HMOS we

reviewed have developed one or more practice guidelines. Within HMOS, consensus

grOUpSof physicians develop agreed-upon standards of practice, which are then used

to evaluate their peers and identify potential quality of care deficiencies.


Medicaid agencies that mandate clinical practice guidelines verify provider adherence

to guidelines during the medical record review process.


b      O@ three Mkdicaid agencies reqtie HMOS to manage physician behavio~

Physicians are the pivotal decisionmakers in HMOS. 31 Their practice patterns can
make the difference between an HMO’s financial success or failure. 32 Because
physicians play such a critical role, HMOS provide financial and other incentives to
manage their behavior.33

The HMOS manage physician behavior by: (1) selecting physicians whose practice
style reflects the HMO’s philosophy and objectives, (2) providing physician education
and feedback on practice patterns in comparison with other HMO physicians, and
(3) offering financial incentives directly impacted by the physician’s practice
pattems.~     In a 1988 survey of its membership, Group Health Association of
America (GHAA) reported that “...73 percent of all HMOS have cavitation
arrangements with physicians, and nearly 40 percent withhold a proportion of the
physicians’ fees or cavitation, putting them at financial risk for poor financial or
utilization performance of the HM0.”35

Health maintenance organizations use data collected by their systems to identi~
physicians whose practice patterns differ from their peers. This data, coupled w“th
information derived from medical record reviews, is used to educate physicians who do
not provide services within expected practice parameters.       Depending on the nature of
the @dings, the HMO may decide to: (1) educate the physician on the HMO’s policy
and standards of practice, (2) provide remedial training to improve the physician’s
technical skills, (3) discipline the physician, or (4) terminate the physician’s contract.

Of the 25 Medicaid agencies that con~ract with HMOS, only 3 have QA standards                                                           ‘“
which directly address physician man~ge”ment. Medicaid agencies are not involved in
physician management because they believe it is inherent in the HMO philosophy and
a good HMO business practice.

Seven agencies require HMOS to report to them, or other appropriate authorities,
serious quality problems resulting in a physician’s suspension or termination. And four
agencies require HMOS to identify providers no longer affiliated with the HMO, but
do not require the HMO to p~ovide a reason for the provider’s termination.


MEDICAID AGENCIES RELY ON COMPLAINT STANDARDS MORE THAN
PATIENT SATISFACITON SURVEYS AND HEALTH OUTCOME REVIEWS TO
ENSURE QUALITY.

Outcome standards (see Table 1) provide infm-mation on how patients fared while
enrolled in the HMO. They assess not mdy the end products of medical care such as
patient health status but also the soundness of HMO operations and procedures.
Sumeys of patient satisfaction with HMO operating procedures, complaints and
grievances provide information on recipient experience in accessing and using HMO
services. Health outcome medical reviews*” examine the entire spectrum of medical
care an HMO has provided to a recipient. These outcome medical reviews differ
from episodic medical record reviews because they take into consideration all of the
medical care, preventative measures and education a recipient received from the
HMO.




      � �

            Thesum health            is
                             otucorrta wi&~ used by ~               a~ci~  ~      d~ private seclor. The precise meaning of health
ouscome diflm &pending on what pmabct or use the entity has in mind in k            ~      the tarn health outcome reviews meatu a
longiadnai   am=mnat      of W medical record(s) of an HMO patient to detcrmirte whe~a due care was aereked in providing medieal
tics       Were services under use~ were preventative measures iakq were the preventative ond medico[ interventions oppropn”ate and
within Occqtted co rnmtutity standards of care? As used in this rcpoq our de/initiatz of heahh outcome ret,iews is not re!a[ed to the
devehpmeru of clinica[ information daia bases dun rank pos~-vcatmetu health suww provide treannem options or other applications




                                                                  13
+	    Alduxzgh HMOS are requiked to rerolve ptient complains and grkvances, most
      Medicaid agenckr rely on HMO reportr to verifi compliance.

All 25 Medicaid agencies require their HMOS to have a process for resolving patient
complaints and grievances. Federal law requires an internal grievance procedure
which: “(a) Is approved in writing by the [Medicaid] agency; (b) Provides for prompt
resolution; and (c) Assures the participation of individuals with authority to require
corrective action.”%

T@al reliance on HMOS to handle the complaints and grievances may leave the
Medicaid agency vulnerable and put recipients at risk. In the HMO environment,
complaints and grievances about the HMO can originate from many sources.
Physicians and other HMO subcontractors, patients and others may complain about
HMO practices and procedures. Complaints may provide early warning about the
financial practices and stability of an HMO. Complaints may reveal problems with
access to setices and patterns indicative of poor care.

Fourteen Medicaid agencies reduce the risk associated with HMOS assessing their own
performance by performing periodic reviews of HMO complaint files. Some Medicaid
agencies sample complaint files, while others review all files to ensure recipient
complaints have been properiy addressed. Reviews are conducted onsite, or through
information provided by the HMO.

Five Medicaid agencies operate their own complaint and grievance units. These
agencies believe that their direct involvement in the resolution of recipient complaints
provides them with greater insight of their HMOS’ QA.

b	     Eight Medicaid agena”er require HMOS to conduct patient satisfaction surveys.
       Seven conduct thek own WUVeySb asws, fii[~        recipient satisfaction

Medicaid agencies use surveys to assess recipient satisfaction with HMO services.
Twenty-six of the 28 HMOS we interviewed conduct satisl%ction sumeys regardless of
agency mandate. The surveys are intended to proviik information about problems
patients encounter in scheduling and securing medical services. Surveys are also used
to elicit patient perceptions of facilities, providers and care.

Eight of 25 Medicaid agencies require their HMOS+m: conduct patient satisfaction
surveys. These surveys are conducted by mail;. telepfmne or in person. Some of these
agencies are actively involved with their HMOS in: th~ design and conduct of
satisfaction surveys. Others leave survey desigrr and collection methods to the
discretion of the HMO. As with complaints and. grievances, allowing HMOS to assess
their own patient satisfaction may leave the Medicaid! agency vulnerable, unless the
agency is integrally involved in all phases of the survey. Sampling methodologies
leading to an underrepresentation    of Medicaid recipients and HMO self-reporting
could bias reporting.



                                            14

Seven Medicaid agencies conduct their ownsuweys. They believe they are gettinga
clearer picture of what is occurring in the Medicaid population, because they are
obtaining information firsthand from the recipient. They believe this to be particularly
true where Medicaid recipients represent a small percentage of HMO enrollment.
These agencies-believe their involvement in satisfaction surveys enables them to take
an active role in corrective actions.

b	     Medicaid agencier and HMOS find the term “heal[h outcomes” ambi~ous,
       sometimes interpreting it to mean Uh&ah-Onreview or me~icai record review.

Health outcome rgonitoring and evaluation is a new and evolving, complex QA
process which focuses on the net results of care. As used in this report, health
outcome monitoring and evaluation involves a longitudinal review of an HMO
patient’s medical record to determine if the care that recipient received met
community standards.

Because they examine all of the medical care a recipient received while enrolled in an
HMO, health outcome reviews take more time and resources than do medical record
reviews. Medical record reviews are usually episodic - they examine the application of
medical knowledge and treatment surrounding a specific medical episode. Health
outcome reviews look at the care provided prior to, during and after a specific health
care event. Consequently, fewer health outcome medical reviews can be conducted
annually.

Proponents think that health outcome reviews are more likely to detect the benefits of
preventative health maintenance and patient counseling, underutilization of semices
and poor quality of care in HMOS than would episodic medical record reviews.37
The folIowing example illustrates how health outcome medical record reviews differ
from episodic medical reviews. An episodic medical review may determine that a
child was seen and properly treated for measles. It may not determine if the child was
ever immunized for measles. Health outcome medical record reviews would not only
determine that the child was properly treated for measles but also whether the HMO
had vaccinated the child to prevent measles.

Medicaid agency and HMO respondents found the term “health outcome review”
ambiguous, sometimes interpreting it to mean utilization review or episodic medical
record reviews. Based on their own interpretation of the term, 6 of the 25 Medicaid
agencies indicated that they required their I-fMOs to monitor and evaluate the health
outcomes of their Medicaid patients. Medicaid agencies verify compliance by
reviewing medical records or patient care data.

One agency respondent doubted that any Medicaid agency or HMO was conducting
health outcome reviews involving the examination of the care a recipient received
from an HMO over an extended period of time. The term health outcome review was
mentioned frequently in HMO QA literature and proposed QA standards. Despite



                                           15

what appears to be widespread use of the term, considerable      differences   apparently
exist in defining what constitutes a health outcome review.

                                                                               -. ——
AGENCY     COMMENTS

We wish to thank both the Health Care Financing Administration (HCFA) and the

Assistant Secretary for Planning and Evaluation (ASPE) for commenting on the draft

report.


The HCFA felt that the draft report promoted the use of outcome QA standatds over

structural and process standards and that a balance of QA standards was more

desirable. They also felt that the draft report might leave some readers with the

impression “...that enrollment in an HMO carries significant risk of inappropriate

care.”


In our response to HCF~ we a~ree with HCFA that a blend of QA standards is

desirable. - The scope of this ins~ection did not analyze differences in quality of care

which might exist between HMO and fee-for-semice providers. Consequently, this

issue was not addressed in this report.


Changes to the report have been made to address comments we received from HCFA

and ASPE. The complete text of their comments, and our response, can be found in

Appendix C.





                                            16

-—




     CHARACTERISTICS   OF HMO RESPONDENTS




                       A -1
niT-
                         TERMS    USED IN APPENDIX               A	

Federally   Qualified:      An HMO is federally qualified (FQ) if it meets certain health	
                            service requirements {described in Sec. 1301(b) of the Public	
                            Health Service Act, 42 U.S.C. 9300e(6) } and certain	
                            organizational and operational requirements {described in Sec.	
                            1301(c) of the Public Health Service Act, 42 U.S.C. S XIOe(c)}.	

State Qualified:
           Medicaid contracting HMOS that are not federally qualified must	
                            be State qualified (SQ). They must meet the HMO	
                            requirements outlined & the State Plan (Section 1902 of the	
                            Social Security Act); unless an exemption has been approved by	
                            HCFA under waiver.	

1115/Nl Waiver:             Under Section 1115, HMOS operate as managed care	
                            demonstration programs with the option of having any section of	
                            the Social Security Act waived. An 1115/M waiver provides for	
                            mandatory enrollment of Medicaid recipients in the HMO.	

1915(b)/M Waiver:           A 1915(b)/M waiver provides for mandatory enrollment of	
                            Medicaid recipients in an HMO or PHP or, in the case of a
                            Health Insuring Organization, a choice of primary care
                            physiciarm

1915(b)/MA      Waiver:     1915(b)/MA waiwer provides for mandatory alternative
                            enrollment. It is used in situations where the Medicaid recipient
                            is required to participate under a State’s primary care case
                            management (PCCh4) program but is allowed to join a Medicaid
                            contracting HiMOJor PHP as an alternative.

75/25 Waive~
               Section 190~m)@(A](ii)       of the Social Security Act requires	
                            that HMO enrollment composition be no more than 75 percent	
                            Medicare ancVor M!!dkaid eiigible enrollees. An HMO may	
                            obtain a waiver ta this. requirement to increase the percentage of	
                            its Medicare ancl/or Medicaidi emollees.	

Staff Model:
               Health care sewices are delivered through a group practice	
                            [employees of the HMO] established by the HMO.	

Group Model:
               The HMO contracts with a gro.u~ practice to provide health care	
                            setices.	

Network Model:
             The HMO both provides t’err,,and contracts with two or more	
                            group practices or physicians tu provide, health care services.	

IPA Model:
                 The HMO contracts with physicians in individual practice to	
                            provide health care services.	


                                           A -3
                 APPENDIX       B




STATE BY STATE   COmmlSON    OF QA ST~@S
             FOR MEDIC~     Hh40s




                    B- I
             �
                                      A STATE BY STATE COMPARISON                      OF QA STANDARDS             FOR MEDICAID   WOS	

                                                          -
     STATE                       CA   co    DC   FL           IL   IN    MA   MD   M[     MN   MO   NC   NH   NJ                         WA   WI
     ........-............
      HMO	
     STANDARDS	

     Grimanee                    x    x     x    x            x    x    x     x    x      x    x    x    x
   x                          x    x

     Proeedurea “

     Palienl Eduealion           x    x     x    x            x    x    x     x    x      x    x    x    x
   x                          x    x

     Pro2rams

     Access 10 Care      �       x    x     x    x            x    x    x     x    x      x    x    x    x
   x                          x    x


     Written QA Plan             x    x     x    x        x        x    x     x           x    x    x
        x                          x    x


    Credent ialing               x    x     x    x        x        x    x     x    x      x         x
        x                          x    x





F   Individual Pa(ient
    Care Da[a

    Utilization
    Review

    Medical Reeord
    Review	
                                 x
                                      x

                                      x



                                      .

                                            x
                                                 x        x



                                                          x



                                                          x	
                                                          -	
                                                                   x


                                                                   x.
                                                                        x




                                                                        x
                                                                              x


                                                                              x
                                                                                   x
                                                                                          x




                                                                                          x

                                                                                               x         x



                                                                                                         x

                                                                                                              x



                                                                                                              x
                                                                                                                                         x



                                                                                                                                         x

                                                                                                                                              x





                                                                                                                                              x




    Palienl Surveys                        x
                           x     x         ~ x
                  x


    Reporting                I             x              x             x     x

    Physician Quality        I
    Problem
    Terminations

    Clinical Praclim                                      x             x     x

    Guidelines                                        I

    Health Outcnme                                        x        x

    Monitoring &
    Evaluation
I
    Physician                                                           x

    Managemen[

    ‘ Federal law mandaks this standard.	
    APPENDIX         C




    AGENCY    COMMENTS




             c-1


—
    ./’-%                                                                                          Health Cam
.                0     DEPARTMENT      OF HEALTH      &   HUMAN SERvICm


      4
                                                                                                   Financing Administration
:
�

:
*                                                                                —	
>

 “%%                    JN29KW
                                                                                                  Memorandum
       Oate	              ~,’                     G
                      w illiarn
                              Toby, Jr.  e	
       From           Acting Administrator	

                      OIG Draft Report:       “Quality Assurance in Medicaid HM@”	
       Subjact
                      OEI-05-92-00110	

       To             Inspector General	
                      ~ce of the Secretary                   “         “	


                     We have reviewed the subject draft report which examines the Quality Assurance	
                     (QA) standards
 used by Medicaid agencies to mhimize the risk of inappropriate
                     medical care in Heaith Maintenance OrganizationS (HMOS). The President’s PkuI
                     for Comprehensive Health Care Reform encourages the use of HMOS as part of
                     coordinated care initiativeLL

                     OIG intewiewed 25 Medicaid agencies that contract with HM@ and conducted	
                     onsite interviews at the HMOS in 16 of these 2S States. OIG identified 13 basic QA	
                     assessment standards that encompassed aimost d of the various standards employed	
                     at the sampied HM&       OIG noted that all Medicaid agenaes rquire use of 4 or	
                     more of the basic 13 standar@ and ail were fdunci to employ some form of structural	
                     standards. “structural standards” as deti in thja report “provide an assessment of	
                     the nature of an HMO’s health care resourceK its fixility, staff and the rules of	
                     procedure.”	

                     In some q       Medicaid agencies were fbund to have continued to apply fee-for­
                     sewice process standards in their QA review @ Hhf@ thOU@ such StaIltidS        IIMy
                     not have been appropriate yardsticks f= measmbg quality in coordinated care	
                     settin~ These agencies were also found to*      more on complaints than patient	
                     satisfaction sumeys or health outcome ~      to ensure quality. To some exten~ this	
                     practie occurnd because both Medicaid agencks and HMOS found the texm “health	
                     outcomes” ambiguous. ofte~ the detemti          of patient outcome was	
                     accomplished ~ie~ through &if-assessment by the I%IOS.

                 Although this report is descriptive in natur~ d              CO-     no directrecommendations	
                 for the Health Care Fiicing              Adminismtio~      we arc providinggeneral and technical	
                 comments.       Th~      comments    address both the COrjtcnt and format of this study.	




                                                                 c-2
Page 2- Inspector General	

QA is a complex area that is rapidly evoking= We were impressed by the energ and	
commitment obvious in this particular QA iswest@tiorL We appreciate the difficulty	
of the task undertaken by OIG staff in this evahmtio~ and thank you for the	
opportunity to review and comment on this draft report Please advise us whether	
you agree with our comments on the report at your earliest ccmvenience.	


Attachment	




                                    c-3
               Comments of the HeaIth Care Fiianeirm Administration (FKFA)	
                        on OIG Draft Reoorc “QualitvASSWUXC	
                          in Medicaid HMO&” oEr-05-n-oollo	


 General Comments/Observations	

 Title and FurDose. The title of this repo~ “QualityAssurance (QA) in Medicaid
 HM@” implies that the report will address how QA is conducted by Heaith
 Maintenance Organizations (HMOS) contracting with Medicaid. Instea@ its subject
 matter is iimited to a descriptive summary of how State agencies monitor HMO
 compliance with certain State and federaily prescribed QA staQdarc& as well as a
 discussion of the nature of these standards. OIG should consider retitling the report and
 clar&ing its statement of purpose in order to help the audience better understand the
 materisd presentecL

 Evaluative Methodolog& The evaluative fkamework used to analyze and compare	
 Medicaid QA standards is a structur~ ~      and outcome typdogy, which is difHcuk to	
 follow in the body of the rcpo~ For examplq on page 5, it is said that:	

         StructuA and process standards do not tell us whether or not a patient was	
         satisfied with the servi~ and may not detect under-utilization of setices or	
         the benefits of preventive health care and patient counseling.	

Yet a chart on the same page defies process standards to inciud= utilization rmhew,	
individual patient care dam clinical practice guidc~   and physician management It	
seems that utilization review, individual @CSMcam da~ and clinical practice guidelines	
woujd ail be expected to address unti~n            k some fo~ particularity when	
considering individual patients with poor ~      outcmn~ There arc no definitions of	
the items on this chart that might resoive the _      contradiction	

we strongly recommend the evaluation contaiu an initial presentation of this complex
framework    and thereafter, cotie hseif to the ~        it establishes therein. To
assistwith development of this tiewo~       OIG may want to refer to: %fcdicare: A
Strategy for Quality &wrance” (Institute of ~        National   Academy of Science&	
February 1990), for a presentation of the use of otdcusnG suucture and process	
measures. This report was commissioned by _             and is one of the principal sources	
of guidance for the Medicaid Managed Care QA program	

m.         Though the report contains no recommendmkms for HCF~ it does present
several signifmant findings. We believe theevaluative methodologyhas significant
blitatio~ and therefore, we are concerned M ~          ~tations   hSNC res~ted in some

inaccuracies in the findings presented Also, many of the findings are in need of
amompaqing explanation to provide a proper context for a more generai audience.



                                             c-4
     Page 2	

 Technical     Comments	

 ~.                   There should be a &scus@nnof the strengths and limitations of the
 evacuation design of this study, particularly since the scope of the ewduat.ion exciuded
 both QA activities conducted by independent quality review organizations under contract
 to State Medicaid agenci~ and internal QA activities performed by HMOS. OIG also
 needs to explain how the sampled Medicaid agencies and HMOS were chosem

 Outcome Standards:        II& report repeatedly promotes the use of outcome-based QA	
 standards%	in HMOS. However, this use of outcomes raises several issues:	
                 .	
 �	       This report hequentiy associates outcome measures w“th patient satistictiom
          However, the inability of patients to judge the quality of medical care they receive
          is broadly acknowledged as a qumtesmW
                                           “           obstacle in the analysis of the health	
          care marketplace. If outcome and patient satisfaction are to be tied together, this	
          obstacie shouid be dixussed in the context of this report.	

�	        In medicine, outcome analysis commmdy refers to the use of clinical information
          data bases that rank post-treatmentheakh statusto select the most potentially
          successful treatment options * _          This “science”is more or less in its
          infancy such data bases do not now exist to an extent that they can be employed
          in routine medical practice. The foumdhg of the Agency for HeaJth Care Poiicy
          and Research in 1989 was spurred by remgnition of the need to promote the
          development of such outcome-based research. The suggestion that this type of
          decisionrnaking be used in co~          IdMOs seems premature.

�	       This repro also suggests that Medicaid managed care is defkient in its use of
         outcome standards, However, the N&ional Academy of science’s recent treatise
         on QA notes:

                This emphasis on outcomes&a critbil ~         Et@l not however, be	
                easy to put into actio~ and it simuld.mzverbe seen as fully	
                displacing pr ocess-of-care asewmem . . ....Numerous aspects of	
                outcome measurement shcndd be undemtzmd befdre being	
                considered appropriate for a quality asmmnce Pm””””	
                Several disadvantages   are associated with owtcome measurement	
                The focus on aggregate data rather tham individual or case-by-case	
                analysis limits its usefulness in changing-b practice behavior for the	
                individual practitioner. Review is by defE&kM historid, that &	
                after care has been de[ivcre~ instant intmvemion in serious	
                situations, where immediate action is jus-    to prevent a potentially	
                bad outcome is not possible. The lack of demonstrated relationships	



                                              c-5
  Page 3	

               between outcome and process of care for many aspects of the	
               management of patients is a ~“or barrier to reliance on	
               outcome measurement for QA program.	

 In sho~ outcome standards must always be balanced with measures of structure and	
 process to ensure high qu@ity in medical care..	

 Managed Care Entities. The first paragraph on page two is confusing It contains . . -	
 references to Preferred Provider Organizations (PPOS), indemnity coverage, premi~	
 and out-of-pocket CQSAthough none of these items are in use in tiw Mediqaid program.	
 On the n~~e,       the report continues by say@ “the remaining Medicaid agencies use	
 fee-for-sewice providers to sewe Medicaid recipients or contract with other managed	
 care pl~ such as PPOS.” &a@ at this tirrw no Medicaid agencies contract with PPOS.	
 OIG should also amend this report to reflect that CMP stands for “Competitive Medical	
 Plan.” Finally, OIG should consider ~g         QA in managed care settings other than
 HMOs in a future investigation.

HMOS. Four categories of HMOS are defined in the tit two pages of this repoti: st@	
group, newor~ and Individual Practice Association (IPA). These categories have	
questionable rekvance since they are private-sector classifications not used by the	
Medicaid prow	

Page seven contains the misleading statement tha~ “Federaf and State laws require
HMOS to submit marketing pla~ proced~         and other materials to the Medicaid
agency for approvaL” HMOS are not required to submit such information for approval
prior to their use. Federal law d-   however, prescri%ecertain standards appkable to	
HMO marketing materia& and States have responsibility for monitoring adherence to	
these standards. Additionally, some States have inde@tdent standards applicable to	
marketing materials.	

The fourth paragraph of page nine states that: “recent court decisions hold HMOS	
financially responsible for the actions of their contracted physicians,” There are several	
different lawsuits on HMO liability, each on a Merent subjcq and each in a different	
stage of Iitigatiom Therefore, we suggest this statement be modified to reflect these	
differences and account for the possibility of appeals to these decisions.	

The fifth paragraph on page 12 outlines the actions HMOS may take to manage	
physician behavior~ Action (3) is: “discipline the physiciam” We recommend this phrase	
be replaced with language that sounds kss punitive or is more explanatory.	

The report generally fads to make a distinction between federally qualified HMOS (as	
stipulated by Rtie 13 of the Public Health Service Act) and otier HMOS subject to State	
and other standards. HMOS have different QA requirements depending on their	
qualification.	
                                            C-6	
  Page 4	

  OIG should aiso note that many HMOS contracting with States are not at full risk since	
  various risk-sharing arrangements arc often in place. ‘kse HMOS may not be in the	
  situation implied in the report in which the ability to contd costs is the difference	
  bemeen success and tiure for an HMO, and in ~             is iikeiy to introduce negative	
  incentives affecting the delivery of care to patients.	

  Medicaid HMO QA All States must contract for independent quality reviews. These	
 reviews provide important information to States that lead to various actions in HMO	
 monitoring. This report makes several claims that States pass on QA respcmdilities to	
 HMOS and that this delegation is problematic, The assumption that this arrangement is	
 problematic is not supported if these independent reviews 6nd either the absence of	
 problems or specific problems sin- in both these ~       States have obtained the	
 information needed for corrective actions OIG should consider including information	
 from States on this process in this report.	

 OIG shouid aiso acknowledge that QA m the Medicaid HMO program has several	
 components:	

 �      HMOS are required to conduct interred QA programs;

 �	     State Medicaid agencies monitor, either directly or through a contractor, HMO
        compliance with certain State and Federal@ prescriid QA standarti,

 �	     States must utilize an independent contractor to review the quality of care
        provided by each HMO on an armwaibask and

�	     Hh4~ that contract with the Me&aid program or that are Federally quaiified are
       also subject to review by Federal program.

This evaluation focuses only on the second&*          components.	

Oualitv of Medical Care. The purpose of this repum is stated ax	

       To descrii the QA standards used by Medicaid agencies to mhimize the risk of	
       inappropriate medical care in HMOS	

Both this wording and the number of times the purpose of the repmt is repeated may
=use the uninfo~d reader to ass~e that e~~en$             in ~ HMO ties        sign&ant
risk of inappropriate care, despite the fact that no res~     exists to support this
conclusion (reference: 1990 Department of HeaI& a@ HumaxISem”ce.sReport to
Congress: “Incentive Arrangements Offered @ He~th Mtite~W               Organizations and
Competitive Medical Plans to Physicians”). -	



                                             c-7
     Page 5	

     ‘b effectof such I,i.ddng
 of concep~ without supper@ documematio~ could have a	
     negative effect on public confidence in HMOS. T’herefor~ we retxxnmend the original	
——   statement of purpose and aiI succeeding statcmemtsbe amended to read	

            To ciescrii the QA standards used by M&&id agencies for Medicaid contracting	
            HMos.	

     The statement is also rqade: “Patient &e data received fkom HMOS often does not meet	
 .   Medicaid agency expectation     Use of the term “expectations” does not make clear what	
     objective data standards OIG means to cite. Medicaid agencies base their evaluations of	
     HMOS on objective criterh	

     Page 11 of the report says that practice guidelines aim to establish minimum standards of	
     care. Practice guidelines are not minimum standan@ but often are thought to promote	
     use of “best practices” in medical care.	




                                               C-8	
OIG RESPONSE TO HCFA COMMENTS	

The HCFA felt that our draft report promoted the use of outcome based QA	
standards over structural and process standards -and- that a balance of QA standards	
was more desirable. They also felt that the draft report might leave some readers w
the incorrect impression that obtaining medical care from an HMO has greater risk	
inappropriate care. In addition to these comments, the HCFA suggested that	
technical changes be made to the report which they felt would help the reader to	
better understand the Medicaid HMO environment and the methodology we used fo
our study.                                             .	

With regard to HCFA’S comments concerning:	

         Title. Puruose. Evaluation Methodology and Quality of Care: The report has
been retitled and the purpose statement clarified. Additional information on how w
classified a particular QA standard as structural, process or outcome and on how	
Medicaid agencies and HMOS were chosen has been added to the report.	

The scope of this inspection did not analyze differences in quality of care which migh
exist between HMO and fee-for-setice     providers. Consequently, this issue was not
addressed in this report.

         Outcome Standards: We agree with HCFA that outcome standards must	
always be balanced with measures of structure and .~rocess to ensure high aualitv	
                                                                          u,

medical care in Medicaid contracting lM40s. We also agree that the “science” if	
health outcome analysis is “...more or less in its infancy ... ,“ We have clarified our	
definition of health outcome reviews to distinguish the health outcome medical record
review QA standard from other health outcome initiatives that would use “... clinical	
information data bases that rank post-treatment health status to select the most	
successful treatment options for patients.!’	

We believe that our clarification of heakh outcome medical record reviews addresses	
HCFA’S concern that such reviews would displace process-of-care assessments. As	
defined, health outcome medical record. reviews siirmld: enliumce process-of-care	
assessments since they would take into consideration all care provided by the HMO,	
including preventative care and patient education and, counseling.	

We further agree that most patients are unable: tojydge the technical components of
their medical care (i.e., the practice of medicine:). l%awever, recipients should not be
discouraged from reporting what they believe to be inappropriate or poor medical	
care. In assessing the quality of HMO selvicesY they cam provide information about	
HMO facilities and practices and problems they enmnmtmeci in accessing HMO	
sem”ces.	

       Managed Care Entities and Medicaid QA: The HCFA felt that our discussion
of the various financial arrangements HMOS engage in was unnecessary in a report o



                                          c-9
Medicaid HMOs.       We included this information inthebackground  section of our	
report to demonstrate   the complex nature of the HMO marketplace.      The business	
arrangements,  sources of income and methods used for ensuring compliance have a	
direct impact on any QA efforts and should not be overlooked when developing a QA	
program.	




                                       “c-10

                                                                                          h-mm.   D.C. m
                                                     APR231SQ


TO:
         Richard        P. Kusserow	
               InspecSor General

FROM :	      Assistant Secretary                     for
             Planning            and    Evaluation

SUEJECT:
 OIG Draft           Report:     ‘Quality              AssWanC@       m   Nedlcaid
             Hr40s , “      OEI-05-92-OOZIO

Thank you	 for providing me with an opportunity to review yaur

draft report on qualitj  ass~nce   (QAj in Medicaid HMOS. ‘The

need for information in this area is great and growing,

especially with the emphasis on Medicaid coordinated care
articulated in the President~s health care reform plan.   ~

I would like     to      offer         four   comments        on the   draft   report:	
First, the methodology       section  should    indicate on what ba8is the
OIG   chose   the  28 HMOS it contacted for this review.        What factors
 (e.g. , size, duration of contract)        were considued in selecting

them? What percentage of the state’s Medicaid HMO enrollment do

these HZ40saccount for? Also, given the impo~nco               of Arizona in

the Nedicaid      HMO realm,  the reasons    for its  omission  from this
review     are of interest and should be outlined.

Second, the report should discuss what federal                   legislation     and
regulations do and do not require concerning QA in Medicaid El!OS,
both as genmal        back~ound     and to put      the f~dings        of you review
in context.       To a greater     extent   than    the report now suggests,
federal requirements help te explain HMOs’ and Medicaid agencies’
current   QA practices.        For example,      the report implies that
Medicaid agencies have clectad to cam                  over  fee-for-smite
 ( FFS) process standards to their HMO programs (pages ii and 8) .
In fact,    ragulat10n8      at 42 CFR 434.34 ~                that XedLcaid
contracts with HMOS provide           fur a    internal     QA system       that is
consistent with the utilization ccmtrol requirement for all	
Medicaid    services,     i.e. , for PFS Medicaid.

Third, recognizing that your review is intended to be simply
descriptive of QA in Medicaid MMQSV mmmtheless, comparison to OX

standards and practices in FFS M~ica~a may be instructive in	
places, for example, in the dlscussia  @ clinical  guidelines.

HlfOS have an uphillbatt~a  to wage pa~:~,y  hcawe,    despite a laclc	
of evidence that it produces higher  quality    and better outcomesl
traditional FFS is w~cialy consl~er~   ths  standard of care. The
absence from yaur report of impertant.md relevant considerations
(e.g. , what happens in FFS, what happens ‘b private industry, the
state of the afi in QA) makes it diffi~~t and problematic to
assess the findings. Additional     contextual information would
make the report  more useful   and valuable.
                                                      C-II	
Page 2 - Richard P.   Kusserow	
        .	
Finally, you may wish to reflect in you report the Medicaid

quality assurance reform proposal includ~ in the FY 1993 budget

and legislativ~pa&age   and/or the QA initiative now in

development in the Medicaid Bureau.

If you have any questions, please call Elise Smith at 245-1870.



                           �


                                                           .—


                               Martin





                                   C-12

                                                                      .

OIG RESPONSE TO ASPE COMMENTS	

The ASPE suggested that additional information be provided in the background and	
methodology sections of the report. They also feh that information about QA in fee­	
for-sexvice and the private sector would provide contextual information making the	
report more useful.	

In response to ASPE’S comments concerning:	

       Methodology : We have revised the methodology section of our report to	
address bqth ASPE’S and HCFA’S request for greater detail concerning our Medicaid	
agency and HMO sample selections:	

        Scope of studv: This study was limited to QA standards required by Medicaid	
agencies. Information about QA standards in fee-for-sewice or the private sector was	
not within the scope of our study. Arizona was not included in our study because it	
contracts with prepaid health plans to provide services to Medicaid recipients and thus	
did not meet our criteria for inclusion in this study.	

       Additional Studies: The ASPE would have liked our report to provide more	
information about QA standards required by federal legislation. They would also have	
liked a comparison of HMO QA standards with fee-for-service QA standards and the	
QA standards of the private sector. Unfortunately, all of these issues were beyond the	
scope of this study, but would be worthwhile endeavors for future study.	

AS ASPE points out, HCFA is currently drafting its own QA program standards for	
managed care organizations as part of the “Quality Assurance Reform Initiative For	
Medicaid Managed Care.”	




            .




                                         C-13

APPENDIX      D




   ENDNOTES




     D-]
 1.
 U. S. Department of Health and Human SeMces, “Tlte Fiscal Year 1992 Budget,” and “The	
       Fscal Year 1993 Budget.”	

 2.    “Medicaid Coordinated Care Enrollment Report, Summary Statistics,” DHHS/HCFNM edicaid	
       Bureau, June 30, 1991.	

 3*    Beyersdorf, Cassidy, Raichel, and Schindler, “HMO’s and Preferred Provider Products: Two	
       Strategic Alternatives for Affordable Health Care; Business Development Institute, 1983, p 15.	

 4.    Riley, Trish, Coburn, Andrew F.,
 Kilbreth, Elizabeth H., “Medicaid Managed Care: The State  “	
       of the Art, A Guide of States,” National AeademV For State Health Policv, September 19W, pp	
       109-110.	

 5.    BerwiclG Donald M., and Knapp, Marian Gi[bert, “Theory and Practice for Measuring Health	
       Care Quality,” Health Care Financing Review, Annual Supplement 1987, pp 49-55.	

 6.	   Bexwick, Donald M., and Knapp, Marian Gilbert, “Theoty and Practice for Measuring Health	
       Care Quality,” Health Care Financine Review Annual Supplement 1987, pp 49-55.	

 7.    Siu, Albert L., McGlynn, Elizabeth A., Morgenstern, Hal, and Brook, Robert H,, “A Fair
       Approach to Comparing Quality of Care,” Health Affairs, Spring 1991, pp 62-75.

 8.    Benvick, Donald M., and Knapp, Marian Gilbert, “Theory and Practice for Measuring Health	
       Care Quality,” Health Care Financing Review, Annual Supplement       1987, pp 49-55.	

 9.	   Benvick, Donald M., and Knapp, Marian ~ilbert, ~eoty and Practice for Measuring Health	
       Care Quality,” Health Care Financitw Review, Annual Supplement 1987, pp 49-55.	

10.	   Siu, Albert L., McGlynn, Elizabeth A., Morgensterrt, Hal, and Brook, Robert H., “A Fair	
       Approach to Comparing Quality of Carq” Health Affairs, Spring 1991, pp 62-75.	

11.
   Schneikart, Madeline, “Credentia}ing in Managed Care: The New Frontier,” JQA, July/August	
       1990, p 7.	

12.	   Potter, John W., ‘UnderstandingUti!izankimData atwt Detecting Provider ‘Gaming,’”ToRicsin	
       Health Care Financing, Spring 1990, pp 28-35.	

13.	   Porter, Michelle J., et. al., “The Interstudy Compet’it’ive Edge, Biannual Report of The	
       Managed Health Care lndustry,mlmerstu@, 191.,.Vial..}, No. 1, p 39.	

14.	   Betwic~ Donald M., and Knapp, Marian GilberrV “Them-y and Practice for Measuring Health	
       Care Quality; Health Care Financing Review, Annual Supplement 1987, pp 49-55.	

15.	   Berwick, Donald M., and Knapp, Marian Gilbert,, ‘Ti%coryand Practice for Measuring Health	
       Care Quality; Health Care Financing Review, Pmnud Supplement 1987, pp 49-55.	

16.	   NCQA Standards for Accreditation, June 24, 1991 and HCFA QA definition          for CLL%	
       176PRE.K dated October 4, 1991.	




                                                 D-2	
17.
   42 CFR 434.30 (a).	

18.
   Berwick, Donald M., and Knapp, Marian Gilbert, “Theory and Practice for Measuring Health	
       Care Quality,” Health Care Financine Review, Annual Supplement 1987, pp 49-55.	

19.
   Schneikart, Madeline, “Credentiaiing   in Managed Care: The New Frontier,” DA        July/August	
       1990, p 7.	

20.
   Siu, Albert L., McGlynn, Elizabeth A., Morgenstern, Hal, Brook, Robert H., “A Fair Approach	
       to Comparing Quality of Care,” Health Affairs, Spring 1991, p 68.	

21.
   Hey, Elizabeth W., ‘Insurer-Sponsored Managed Health Care:        1990,” Health Insurance	
       +%sociation of America, September 1991.	

22.
   Freund, Evan and McCoy, Catherine A., “Successful Utilization Review Requires a Physician	
       Component,” Contract Healthcare, July 1988, p 29, and Hey, Elizabeth W., “Insurer-Sponsored	
       Managed Health Care: 1990,” Health [nsurance Association of America, September 1991, p 10.	

23.
   “Medicaid Managed Care: The State of the Art, A Guide for States,” National Academv for	
       State Health Polim September 1990, pp 93-96.	

24.
   “A Survey of State Medicaid and Insurance Officials on HCFA’S Medicaid Managed Care Draft	
       Operations Report; A Report to the National Governors’ Association,” National Academv for	
       State Health Policy, June 24, 1991, p 3.	

25.
   Siu, Albert L, McGlynn, Elizabeth A., Morgenstern, Hal, and Brook, Robert H., “A Fair	
       Approach to Comparing Quality of Care,” Health Affairs, Spring 1991, pp 62-75.	

26.
   Bexwick, Donald, M., Knapp, Marian Gilbert, “Theory and Practice for Measuring Health Care	
       Quality: Health Care Financine Review, Annual SupplemenL 1987, pp 49-55.	

27.
   Siu, Albert L, McGlynn, Elizabeth A., Morgenstern, Hal, and Brook, Robert H., “A Fair	
       Approach to Comparing Quality of Care,” Health Affairs, Spring 1991, pp 62-75.	

28.
 Social Security Act, Section 1902(a)(30)(C).	

29.
 Potter, John W., “Understanding Utili~tion Data and Detecting Provider ‘Gaming’,” Topics            in	
       Health Care Financing, Spring 1990, Vol. 16, No. 3, pp 28-35.	

30.
   Rosen, Richard & “The Place of Health Care Standards in Quality Assurance;         HMO Practice,
       vol. 3, No. 5, Pfl 173-177.


31.
   Langwell, Kathtyn, “Structure and Performance of Health Maintenance Organizations:           A	
       Review,” Health Care Financing Review, Fall 1990, Vol. 12. No. 1, pp 71-79.	

32.
   Langwell, Kathryn, “Structure and Performance of Health Maintenance Organizations:           A	
       Review,” Health Care Financirw Review, Fall 1990, Vol. 12, No. 1, pp 71-79.	

33.
   Morrison, Luft, “Health Maintenance Organization Environments       in the 1980s and Beyond,”	
       Health Care Financing Review, Fall 1990, Vol. 12, No. 1, p 86.	




                                                 D-3

34.	   Lang’well, Kathryn, “Structure and Performance of Health Maintenance Organizations:       A	
       Review,” Health Care Financing Review, Fall 1990, Vol. 12, No. 1, pp 71-79.	

35.
   Langwell, Kathryn, “Structure and Performance of Health Maintenance      Organizations:   A	
       Review,” Health Care Financing Review, Fall 1990, Vol. 12, No. 1, pp 71-79.	

36.    42 CFR Part 434.32,October 1, 1984.	

37.
   Siu, Albert L., McGlynn,Elizabeth A., Morgenstern, Hal, and Brook, Robert H., “A Fair	
       Approach   to Comparing   Quality of Care,” Health Affairs, Spring 1991, pp 62-75.	




                                                D-4

